<html>
<title> - ROLE OF IMMIGRATION IN STRENGTHENING AMERICA'S ECONOMY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
         ROLE OF IMMIGRATION IN STRENGTHENING AMERICA'S ECONOMY 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2010

                               __________

                           Serial No. 111-155

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-480 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
TED DEUTCH, Florida                  TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DANIEL MAFFEI, New York
JARED POLIS, Colorado

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

HOWARD L. BERMAN, California         STEVE KING, Iowa
SHEILA JACKSON LEE, Texas            GREGG HARPER, Mississippi
MAXINE WATERS, California            ELTON GALLEGLY, California
PEDRO PIERLUISI, Puerto Rico         DANIEL E. LUNGREN, California
LUIS V. GUTIERREZ, Illinois          TED POE, Texas
LINDA T. SANCHEZ, California         JASON CHAFFETZ, Utah
ANTHONY D. WEINER, New York
CHARLES A. GONZALEZ, Texas
JUDY CHU, California

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel



















                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 30, 2010

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     2
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     4
The Honorable Anthony D. Weiner, a Representative in Congress 
  from the State of New York, and Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     5

                               WITNESSES

The Honorable Michael R. Bloomberg, Mayor of New York City, New 
  York City Mayor's Office
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
Mr. Rupert Murdoch, Chairman and Chief Executive Officer, News 
  Corporation
  Oral Testimony.................................................    12
  Prepared Statement.............................................    15
Mr. Jeff Moseley, President and Chief Executive Officer, The 
  Greater Houston Partnership
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
Mr. Steven A. Camarota, Director of Research, Center for 
  Immigration Studies
  Oral Testimony.................................................    32
  Prepared Statement.............................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Judy Chu, a Representative in 
  Congress from the State of California, and Member Subcommittee 
  on Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................    60


         ROLE OF IMMIGRATION IN STRENGTHENING AMERICA'S ECONOMY

                              ----------                              


                      THURSDAY, SEPTEMBER 30, 2010

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 9:43 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Conyers, Jackson Lee, 
Waters, Chu, Gutierrez, Gonzalez, Weiner, Sanchez, 
Sensenbrenner, Lungren, King, Poe, and Harper.
    Staff Present: (Majority) Ur Mendoza Jaddou, Subcommittee 
Chief Counsel; Traci Hong, Counsel; Tom Jawetz, Counsel; David 
Shahoulian, Counsel; Danielle Brown, Counsel; Reuben Goetzl, 
Clerk; (Minority) Andrea Loving, Counsel; and George Fishman, 
Counsel.
    Ms. Lofgren. So this hearing on the Subcommittee on 
Immigration Citizenship, Refugees, Border Security, and 
International Law will come to order. While we appreciate the 
press taking pictures of our witnesses, we would ask if they 
could recede a bit so that we may actually see them. Thank you 
very much, photographers.
    I would like to welcome our witnesses, Members of the 
Immigration Subcommittee, and others who joined us today for 
the Subcommittee's hearing on the ``Role of Immigration in 
Strengthening America's Economy.''
    Often lost among the passionate debate on immigration are 
the facts on immigrant entrepreneurs that generate billions of 
dollars for the U.S. economy and thousands of new American 
jobs.
    Immigrants are nearly 30 percent more likely to start a 
business than non-immigrants. In California alone immigrants 
generate nearly one-quarter of all business income, nearly $20 
billion. They represent nearly 30 percent of all business 
owners in California, one-fourth of business owners in New 
York, and one-fifth in New Jersey, Florida, and Hawaii. In New 
York, Florida, and New Jersey immigrants generate one-fifth of 
the total business income.
    Immigrants are not only bringing more income to the 
economy, their businesses are creating new jobs. Businesses 
started by immigrants have a higher rate of creating jobs than 
the average for all businesses created by immigrants and non-
immigrants combined, 21 percent versus 18 percent.
    As a resident of California, I have long been familiar with 
the role immigrants play in growing the State's economy and 
creating jobs for Americans. Over half, 52.4 percent, of 
Silicon Valley startups had one or more immigrants as a key 
founder. Statewide, 39 percent of startups had one or more 
immigrants as a key founder.
    Of the engineering and technology companies started in the 
United States from 1995 to 2005, 25 percent had at least one 
key foreign born founder.
    Nationwide, these immigrant-founded technology companies 
produced $52 billion in sales and employ 450,000 workers in the 
year 2005.
    Contributions of immigrants to the technology industry is 
only just the beginning. Immigrants own more than one-fifth of 
businesses in the arts, entertainment, and recreation industry 
nationwide. They own more than 10 percent of business in 
education, health and social services, professional services, 
retail, trade, and construction. Overall they own 12.5 percent 
of all businesses in the United States. Of businesses worth 
$100,000 or more in sales, immigrants own 11 percent of such 
businesses and 10.8 percent of all businesses with employees.
    It is very important for Congress to review the facts on 
immigrant entrepreneurship and their contributions to growing 
the American economy and creating American jobs. This will help 
Congress to appropriately determine how best to structure 
immigration law to continue improving our Nation's economy.
    I welcome today's witnesses who have unique perspectives on 
immigrant participation in the American economy, and I look 
forward to hearing from them today. I would now like to 
recognize our distinguished Ranking minority Member, 
Congressman Steve King, for his opening statement.
    Mr. King. Thank you, Madam Chair, and I want to thank the 
witnesses for appearing here today. I know you all have busy 
lives and important things to attend to, and yet perhaps I have 
sat through enough of these hearings now that I wonder why we 
are holding this one.
    According to the hearing title, the outcome is already a 
foregone conclusion. That title is the Role of Immigration in 
Strengthening America's Economy. I would point out, too, that 
there has been, I believe, a concerted and willful effort to 
conflate the terms ``immigration'' and ``illegal immigration'' 
to where now America in normal conversation doesn't really know 
which we are talking about if there is a distinction in their 
minds at all.
    But it is my understanding that the hearings are held in 
order to get information that will help us determine policy. So 
I will chalk up the name to overzealousness and listen to the 
witnesses.
    I know that two of the witnesses here are already on record 
determining that immigrants help the economy and therefore we 
must legalize the entire illegal immigrant population in the 
U.S. Again, I draw that distinction between legal and illegal. 
But not everyone agrees. There are experts, including one who 
will testify today, whose research has found that low-skilled 
immigrants are actually a drain on the U.S. economy and amnesty 
is not a good idea.
    One of these experts who is not here today is Robert 
Rector, the Senior Research Fellow at the Heritage Foundation. 
One of Mr. Rector's definitive studies was on the cost of 
illegal immigrants to Americans and legal immigrants. He looked 
at households that were headed by low-skilled immigrants and 
found that the average household headed by a low-skilled 
immigrant receives $30,160 per year in government benefits, and 
that is an average of course, but they pay an average of 
$10,573 in taxes. So the net cost to the taxpayer is $19,588 a 
year. Overall, the net cost to taxpayers is $89 billion a year. 
I think that makes a strong case that America has become now a 
welfare state and it is not the America that we think of a 
hundred and some years ago when people came here on their 
merits and had to provide their own input into the economy and 
find a way to take care of themselves.
    So after that Rector went on to find that amnesty would 
have another staggering fiscal impact. He reasoned that once 
illegal immigrants became citizens they have the right to 
sponsor their parents for permanent residence with no yearly 
numerical limitation. These parents could then themselves 
become U.S. citizens and they would be eligible for two very 
expensive Federal programs, Supplemental Security Income and 
Medicaid. Rector estimates that the parents' participation in 
just these two programs would add $30 billion a year in costs 
to the Federal Government, and he goes to estimate that in all, 
should illegal immigrants receive amnesty, that governmental 
outlay in retirement costs, including Social Security, 
Medicaid, Medicare, and Supplemental Security Income alone 
would be at least $2.6 trillion.
    So over the years this Subcommittee and the full Committee 
have examined the effects of immigration on States and 
localities on a number of occasions. San Diego, the full 
Committee explored the impacts that the Senate-passed Reid-
Kennedy amnesty bill would have on American communities at the 
State and local level. We heard testimony that Los Angeles 
County is being buried with the health care, education, 
criminal justice, and other costs associated with illegal 
immigration.
    We also heard from a witness from the University of Arizona 
Medical Center at Tucson, and I have been to visit that center 
on these immigration issues, who said that providing care to 
the uninsured, uncompensated poor and foreign nationals cost 
the hospital $30 million in 2006 and $27 million in 2005. He 
also related to me in my visit that the hospital has been 
filled up, and they have had to life flight the residents of 
Tucson to Phoenix because there wasn't room in their hospital 
because it was full of illegals.
    And more than a decade ago, at a hearing on the same topic, 
Michael Fix of the Urban Institute told the Judiciary Committee 
that, and I quote, ``There is a broad consensus in the research 
that the fiscal impacts of illegal immigrants; that is, their 
impacts on local, State and Federal taxpayers are negative, 
generating a net deficit when they are aggregated across all 
levels of government.''
    Despite the evidence already collected by this Subcommittee 
the majority has decided it is time to look at this issue 
again. Unfortunately for them the real expert on the panel 
today concludes the opposite of what the majority asserts.
    And I would lay another piece of this out, and that is that 
as much as we might talk about the contribution to the economy 
and the growth in our growth domestic product, and I agree that 
any work productive work adds to that GDP, there is also a cost 
to sustaining citizens in this society and we have to balance 
those two things and take a look at how our culture evolves and 
what we are like as a people in future generations. That has 
been part of the considerations in previous immigration debates 
that this country has had, and it has been some of the 
foundation of the policy that has emerged and exists to this 
day.
    So I would ask this, whatever the analysis of the 
economics, we have also the rule of law that to me is 
priceless, and so I will stand on the rule of law and I will 
take a consideration to the economic comments that are here 
today and see if there is a balance to the two, but I am 
certainly not going to sacrifice the rule of law for an 
economic interest because I think that is more important to 
this country.
    Thank you, Madam Chair. I look forward to the testimony of 
the witnesses, and I yield back the balance of my time.
    Ms. Lofgren. The gentleman's time has expired. The Ranking 
Member of the full Committee, Mr. Smith, has an opening 
statement and is recognized for 5 minutes.
    Mr. Smith. Thank you, Madam Chair. America has a wonderful 
tradition of welcoming newcomers. We admit more than one 
million legal immigrants every year, which is almost as much as 
every other Nation in the world combined, and it is no surprise 
that so many people want to come here. We are the freest and 
most prosperous Nation in the world.
    Immigrants have benefited America in many ways. They are 
laborers, inventors, and CEOs, and include one of our witnesses 
here today.
    Our country is a better place because we have been able to 
attract so many highly skilled immigrants. We should continue 
to invite the world's best and brightest to come to America and 
contribute to our economic prosperity.
    However, there is a right way and a wrong way to come into 
our country. Legal immigrants play by the rules, wait their 
turn, and are invited. Others cut in front of the line, break 
our laws, and enter illegally. Some people say that we need to 
pass a comprehensive immigration reform bill that includes 
amnesty for millions of illegal immigrants in the U.S., but 
citizenship is the greatest honor our country can bestow. It 
shouldn't be sold to lawbreakers for the price of a fine.
    Amnesty will enable illegal workers to depress wages and 
take jobs away from American citizens and legal immigrants. In 
New York, for example, there are 800,000 unemployed individuals 
and 475,000 illegal immigrants in the workforce, and in Texas 
illegal immigrants in the workforce actually outnumber 
unemployed individuals. There are 1,050,000 illegal immigrants 
in the workforce and one million unemployed individuals. So we 
could free up hundreds of thousands of jobs for American 
workers in just those two States if we enforced our immigration 
laws.
    Also, the Center for Immigration Studies estimates that 
low-skilled immigration has reduced the wages of the average 
native born workers in a low-skilled occupation by 12 percent a 
year, or almost $2,000. Why would we want to put the interest 
of foreign workers ahead of the economic well-being of American 
workers?
    There is another cost to illegal immigration besides lower 
wages and lost jobs. Taxpayers foot the bills for their 
education, health care, and government benefits. Overcrowded 
classrooms, long waits in hospital emergency rooms, and costly 
government services would only become worse if millions of 
illegal immigrants are legalized, and amnesty would further 
bankrupt the already strained Social Security System.
    The Social Security Administration calculates that a 
typical unmarried illegal immigrant will receive between 15 and 
$20,000 more in retirement benefits than they pay into the 
system. A married illegal immigrant couple in which one spouse 
works can expect $52,000 more than they pay into the system. 
Paying Social Security benefits to illegal immigrants who 
receive amnesty could cost hundreds of billions of dollars and 
bankrupt the system.
    Some say that the taxes illegal immigrants pay offset the 
cost of providing them education, health care, and government 
benefits, but at their low wages most illegal immigrants don't 
even pay income taxes and even when they do, their taxes don't 
cover other government services like maintaining highways, 
providing for our national defense, and taking care of needy 
and elderly. Every objective and unbiased study has come to 
this conclusion.
    Those who support amnesty are clearly on the wrong side of 
the American people. A recent poll found that when given the 
choice of immigration reform moving, quote, in the direction of 
integrating illegal immigrants into American society or in the 
direction of stricter enforcement of laws against illegal 
immigration, end quote, 68 percent of those polled support 
stricter enforcement.
    U.S. immigration policy should reward those who come here 
legally, not those who disrespect the rule of law. U.S. 
citizens and legal immigrants should benefit from our 
immigration policies. Illegal immigration already hurts 
American workers and American taxpayers. Amnesty for millions 
of illegal immigrants may be good for foreign countries, but it 
is not good for America.
    Thank you, Madam Chair, and I yield back.
    Ms. Lofgren. Thank you, Mr. Smith. And Mr. Conyers has not 
yet arrived, so I think we will reserve his opening statement 
for his attendance.
    As is our custom, we invite the Member of Congress whose 
constituents are witnesses to introduce them, and so I would 
like to turn to our colleague, Mr. Weiner, to introduce Mayor 
Bloomberg and Mr. Murdoch, and I will of course introduce the 
other two witnesses.
    Mr. Weiner.
    Mr. Weiner. Well, thank you, Madam Chair, and I welcome 
them both. I am unfamiliar with both of them, so I will read 
the prepared introduction you wrote.
    Let me just first begin by welcoming the mayor of the City 
of New York, Michael Bloomberg, who is well-known obviously as 
the mayor of the city, but also is increasingly familiar to the 
halls of Congress, to the many issues that impact big cities 
and the many issues that impact our economy as a whole.
    Bloomberg L.P., which he founded, provides financial news 
and information services to over 285,000 subscribers and it has 
11,000 employees worldwide. He is someone that is never afraid 
to innovate, never afraid to think outside the box, and one who 
is unconstrained by traditional party politics. His taking on 
this issue is consistent with his efforts to persuade Congress 
to invest more in infrastructure, to persuade Congress to take 
stronger steps in fighting terrorism and crime in big cities, 
and I very much welcome him here today.
    We are also joined by Rupert Murdoch, who is the Chairman 
and Chief Executive Officer of News Corporation, one of the 
largest diversified media companies in the world. He, too, is a 
large employer in my home city, and we are grateful for that. I 
am told he also is behind the Fox Broadcasting Company, 
although I only watch that when I am on it, and also the New 
York Post and many other publications. Mr. Murdoch is also, in 
addition to taking on this issue, is always someone who has 
been willing to share his expertise with Members of Congress 
and his considerable experience in the economies of other 
countries, and we very much welcome them both here.
    I think what we will find, Madam Chair, and my colleagues, 
is as much heat is generated by the issue of immigration reform 
on shouting television shows and here in Congress, in fact 
there is a remarkable consensus among people who actually 
create jobs about the relatively easy steps that we can take to 
improve our immigration system, both for the benefit of our 
economy and also to the benefit of the people who are in that 
system, both those that have documentation now and those who 
seek it. And I always think, and I always talk to Mr. Gutierrez 
about this, that if you have got 10 regular Americans around 
the table and said here are the imperatives that we have, we 
want to create jobs, we want to have a system that works, we 
don't want anyone to jump over someone else, we could probably 
solve the immigration challenges relatively easily. If we leave 
the demagoguery at the door, if we tell the people on one side 
who want to provide amnesty for everyone we are not going to do 
that and the people on the other side who just want to say 
let's hire several hundred thousand immigration officers and go 
round up people we are not going to do that either, there is a 
broad swath in the middle of this country represented by the 
two men I just introduced who really do understand these 
problems are solvable if we roll up our sleeves, metaphorically 
and literally, and get to work.
    But I want to thank these two gentlemen for being here, and 
we welcome their testimony.
    Ms. Lofgren. Thank you, Mr. Weiner, for introducing the two 
witnesses, and now I will introduce the remaining witnesses. 
Mr. Jeff Moseley is the President and Chief Executive Officer 
of the Greater Houston Partnership. The Greater Houston 
Partnership serves and is the primary business advocate for the 
10-county Houston area dedicated to securing regional economic 
prosperity. Prior to joining the Greater Houston Partnership, 
Mr. Moseley served as CEO of the Office of the Governor for 
Economic Development and Tourism and as the Executive Director 
of the Texas Department of Economic Development. He was also 
elected to three terms as the Denton County judge, and he has 
served with the Greater Houston Partnership as President and 
CEO since 2005.
    Finally, I would like to introduce Mr. Steven Camarota. Mr. 
Camarota is the Director of Research at the Center for 
Immigration Studies in Washington, D.C. He has been with the 
Center since 1996. His focus is economics and demographics. Mr. 
Camarota holds a Ph.D., or I should say Dr. Camarota, from the 
University of Virginia in public policy analysis and a Master's 
degree in political science from the University of 
Pennsylvania. He has testified before Congress numerous times 
and has written many articles on the subject of immigration for 
the Center.
    Mindful of our time, other Members of the Committee are 
invited to submit written statements for the record. We will 
also submit the written statements of each witness for the 
record, and we would ask that their oral testimony consume 
about 5 minutes. When the little machines on the desk turn 
yellow, it means you have consumed 4 minutes, and when it turns 
red it means your 5 minutes are up, but we will not cut you off 
in the middle of a sentence. We would ask that you try to 
conclude and summarize at that point.
    So first we will turn to you, Major Bloomberg. Thank you so 
much for being here.

 TESTIMONY OF THE HONORABLE MICHAEL R. BLOOMBERG, MAYOR OF NEW 
            YORK CITY, NEW YORK CITY MAYOR'S OFFICE

    Mr. Bloomberg. Chairwoman Lofgren and Ranking Member King, 
Ranking Member Smith, and Congressman Weiner, once again 
congratulations on your recent marriage. I am sure there is an 
act of Congress to say congratulations. And I did want to thank 
Representative--all of the New York delegation, one Republican 
in the New York City area and mostly Democrats, but all of them 
who understand the needs of our city.
    Our system of immigration I think it is fair to say is 
broken, I think it is undermining our economy. It is slowing 
our recovery and really is hurting millions of Americans, and 
we just have to fix it. And I do believe that this is an issue 
where Republicans and Democrats can come together and 
Independents as well to find common ground. That has been our 
experience in forming what we call the Partnership for a New 
American Economy that Rupert Murdoch and I have started of 
business people and mayors around this country. We have members 
of every political background.
    We believe that immigration reform needs to become a top 
national priority, and we are urging members of both parties to 
help us shift the debate away from emotions and toward 
economics because the economics couldn't be any clearer. Many 
studies have analyzed the economic impact of immigration. I 
will just touch briefly on seven key areas that come out of 
that data.
    Since 1990 cities with the largest increase in immigrant 
workers have had the fastest economic growth. New York City is 
a perfect example. Immigrants have been essential to our 
economic growth in every single industry. Immigrants are a 
reason why New York City has weathered the national recession 
much better than the country as a whole.
    This year we account for one out of every 10 private sector 
jobs created throughout the entire Nation, just New York City 
alone.
    Second, immigrants pay more in taxes than they use in 
benefits. Immigrants come to America to work, often leaving 
their families behind, and by working they are paying Social 
Security taxes, supporting our seniors. Immigrants also tend to 
be younger and have a lot less need for Social Services. One 
wonders where some of this research comes from. It just does 
not jibe with what we see in New York City.
    Third, immigrants create new companies that produce jobs. 
Studies show that immigrants are almost twice as likely as 
native born Americans to start companies, and from 1980 through 
the year 2005 nearly all net job creation in the United States 
occurred in companies less than 5 years old and many of these 
new companies have defined the 21st century economy, such as 
and Google and Yahoo and Ebay. They were founded by immigrants. 
Immigrants also create small businesses and in New York City we 
desperately need them to come and create the jobs that will put 
New York City people back to work.
    And this is not a new story. History shows that every 
immigrant generation in the United States has fueled the 
economic engine that makes the United States the strongest 
economy in the world.
    Fourth, more and more countries are competing to attract 
entrepreneurs and high-skilled workers. Chile is offering 
American entrepreneurs $40,000 and a 1-year visa to say to stay 
in the country. China has recruited thousands of entrepreneurs, 
engineers, and scientists to return and join the surging 
economies of Shanghai and Beijing. Yet in America we are 
literally turning them away by the thousands or making the visa 
process so tortuous that no one wants to endure it.
    Fifth, the more difficult we make it for foreign workers 
and students to come and stay here the more likely companies 
will move their jobs to other nations. And just look what has 
happened in Silicon Valley. Many companies have not been able 
to get workers into the country and have been forced to move 
their jobs to Vancouver, Canada. And just as troubling, more 
and more foreign students are reporting plans to return home 
because of visa problems. We educate them here and then in 
effect we tell them to take that knowledge and start jobs in 
other countries. It makes no sense whatsoever. I have described 
this as national suicide.
    Sixth, we know that our businesses need more high and low-
skilled work labor that we are letting this country right now, 
and they are the ones that will provide the employees for the 
high-skilled jobs that we have to fill, and allowing companies 
to far more easily fill those jobs would be perhaps the best 
economic stimulus package Congress could create.
    At the same time many other companies are seeking to fill 
low wage jobs that Americans just will not take, from fruit 
pickers to groundskeepers to custodians.
    And seventh, and finally, creating a path for citizenship 
for illegal immigrants will strengthen our economy. Both the 
Cato Institute and the Center for American Progress have found 
that a path to legal status will add billions to our GNP in the 
coming decades.
    So in summary, in the economy case for immigration couldn't 
be stronger and our Partnership for a New American Economy has 
adopted a core set of principles that we hope will guide the 
Members of this Committee by drawing up legislation. I don't 
think there is any doubt that we need to secure our borders. It 
is essential that America be able to decide who comes here, who 
we want, and who we don't. But it is impossible to secure our 
borders without an overall package of reforms that reduces 
demand and holds companies accountable to verify workers 
rights. No matter how many border people we send, if you take 
away the incentive to come here it will make that easy, and 
then we have to go and give visas to those that will create the 
jobs and keep our economy growing to keep America competitive 
in the global marketplace. We just have to recognize that our 
economy has changed and our immigration policy needs to change 
with it.
    Thank you very much.
    [The prepared statement of Mr. Bloomberg follows:]
        Prepared Statement of the Honorable Michael R. Bloomberg

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Ms. Lofgren. Thank you very much, Mayor.
    Mr. Murdoch, we would be pleased to hear from you.

   TESTIMONY OF RUPERT MURDOCH, CHAIRMAN AND CHIEF EXECUTIVE 
                   OFFICER, NEWS CORPORATION

    Mr. Murdoch. Thank you, Chairwoman Lofgren, Ranking Member 
King, and Members of the House Judiciary Immigration 
Subcommittee. I appreciate the opportunity to appear before you 
this morning to discuss the Role of Immigration in 
Strengthening America's Economy.
    As an immigrant, I chose to live in America because it is 
one of the freest and most vibrant nations in the world. And as 
an immigrant, I feel an obligation to speak up for immigration 
that will keep America the most economically robust, creative, 
and freedom loving nation in the world.
    Over the past 4 decades I have enjoyed all the benefits of 
living, working, and building a business in America. I have had 
the freedom to pursue my dreams, secure the best opportunities 
for my children, and to participate in the open dialogue that 
is essential to a free society.
    Today America is deeply divided over immigration policy. 
Many people worry that immigrants will take their jobs, 
challenge their culture, or change their community. Others want 
to punish those who fled poverty or oppression in their native 
countries and came to the U.S. outside the legal system.
    I joined Mayor Bloomberg in organizing the Partnership for 
a New American Economy because I believe that all Americans 
should have a vital interest in fixing our broken immigration 
system so we can continue to compete in the 21 century global 
economy.
    While supporting complete and proper closure of all our 
borders to future illegal immigrants, our partnership advocates 
reform that gives a path to citizenship for responsible, law 
abiding immigrants who are in the U.S. today without proper 
authority. It is nonsense to talk of expelling 11 or 12 million 
people. Not only is it impractical, it is cost prohibitive.
    A study this year put the price of mass deportation at $285 
billion over 5 years. There are better ways to spend our money.
    We need to do more to secure our borders. We can and should 
add more people, technology and resources to ensuring that we 
have control over who comes into this country, but I worry that 
spending alone will not stop the flow of illegal immigrants. 
The U.S. has increased border security funding almost every 
year since 1992, while at the same time the estimated 
population of illegal immigrants has more than tripled. That 
number only started to decline when our country hit a recession 
and there were fewer jobs. So our border security must also be 
matched with efforts to make sure employers can't hire illegal 
immigrants.
    A full path to legalization requiring unauthorized 
immigrants to register, undergo a security check, pay taxes, 
and learn English would bring these immigrants out of a shadow 
economy and add to our taxpayers. According to one study, a 
path to legalization will contribute an estimated $1.5 trillion 
to the gross domestic product over 10 years. We are desperately 
in need of improving our country's human capital.
    We want to bring an end to the arbitrary immigration and 
visa quotas that make it impossible to fill the labor and 
skilled needs of our country. We have to return to an America 
that is a magnet for many of the best young brains in the 
world. America needs to keep the door open to those who come 
here to get an advanced degree and then allow them to join the 
ranks of our most productive scientists, entrepreneurs, 
innovators, and educators.
    Today we attract some of the world's smartest people to our 
shores, give them the best that American higher education can 
offer, and then put them on planes back to their own countries. 
That is self defeating and has to stop. We need to make it 
easier for them to stay so they can make their contributions to 
America.
    These are young people who are inventing the next 
generation of big ideas. In fact, a full 25 percent of all 
technology and engineering businesses launched in America 
between 1995 and 2005 had an immigrant founder, and these 
businesses have created hundreds of thousands of new American 
jobs.
    As America's baby boomers approach 65, immigrants are 
helping to keep our workforce young and growing. Today more 
than 40 percent of our immigrant population is age 25 to 44. 
These are consumers who generate considerable spending on goods 
and services and housing.
    In sum, America's future prosperity and security depends on 
getting our immigration policy right and doing it quickly. From 
all across the country, from the public and private sectors, 
and from every political persuasion, our partnership is 
bringing leaders together for one purpose: To ensure that 
America's doors remain opening so that our economy remains 
strong.
    I appreciate the opportunity to share my views with you 
today, and I thank you for listening.
    [The prepared statement of Mr. Murdoch follows:]
                  Prepared Statement of Rupert Murdoch

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
    Ms. Lofgren. Thank you, Mr. Murdoch.
    Now we would be pleased to hear from you, Mr. Moseley. We 
need your microphone on.

   TESTIMONY OF JEFF MOSELEY, PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, THE GREATER HOUSTON PARTNERSHIP

    Mr. Moseley. Good morning, Madam Chair, Representative 
King, Chair Conyers, and our good friend from Texas, Ranking 
Member Smith, Members of the Committee. Thank you for your 
leadership and for your commitment to reforming America's 
immigration laws.
    As the chair introduced me, my name is Jeff Moseley and I 
serve as President and CEO of the Greater Houston Partnership, 
and I want to say thank you for allowing me to be a part of 
this very distinguished panel. A lot of pleasure to be with 
Mayor Bloomberg and Mr. Murdoch and Dr. Camarota.
    I have submitted a written testimony, and these comments 
that I am giving is just a quick summary of the written 
statement. And while each of us may not agree on specifics, we 
certainly appreciate the fact that there is a conversation with 
the American people, a conversation that focuses on the role of 
immigration, a conversation on strengthening America's economy, 
and a conversation about fixing a broken immigration law.
    The Greater Houston Partnership is a business association. 
We have 3,000 members, and these represent companies that do 
more than $1.6 trillion in annual revenues. The partnership 
seeks to bring a grassroots voice for the business community 
and for industry into this American dialogue, a voice that we 
recognize has quite frankly been missing from the debate.
    During the last several years we have witnessed several 
failed attempts to pass immigration reform and admittedly, 
Madam Chair, the business community bears some responsibility 
for standing by the sidelines. So we are here today to commit 
to stand up and to make sure the business voice is a part of 
this reform process.
    As you have heard already from our distinguished witnesses, 
we are certainly all of immigrant stock and we recognize that 
America's immigration system today is just not working. The 
best solution toward reforming our laws require a bipartisan 
action of Congress, but this national debate really goes back 
to our earliest days as a Nation. I don't know if your history 
teacher taught you this, mine didn't, but apparently in the 
1750's, while America was still a colony and part of the 
British Empire, Pennsylvania was seeing a tremendous number of 
German immigrants and they were arriving in droves. And guess 
what? They were opening their own schools and their own houses 
of worship. They had their own printing presses, which produced 
German language newspapers. Well, this was really too much for 
Americans of British stock to tolerate. Someone even as 
moderate as the reasonable Benjamin Franklin was positively 
undone over these German newcomers. In fact, he called them 
Palatine Boors, and he warned that if English speaking 
Pennsylvanians did not take drastic steps to preserve their 
language and culture they would find themselves submerged in a 
Teutonic tide. And Franklin said, why should Pennsylvania, 
founded by the English, become a colony of aliens who will 
shortly be so numerous as to Germanize us instead of us 
Anglifying them and will never adopt our language or our 
customs any more than they can acquire our complexion.
    Sounds familiar, doesn't it? It almost sounds as though Ben 
Franklin could be one of the news entertainers that take this 
very complex issue of immigration reform and take out and 
sensationalize the dialogue.
    But we are here, Mr. King, to talk about how we can be a 
positive force in fixing this broken law, and we think that a 
law that does not recognize market forces or labor demand 
really is really doomed from the beginning.
    In fact, in 1986 the intent of the Immigration Control and 
Reform Act was to make employers responsible for verifying the 
legality of the workforce. However, the current system by which 
employers are asked to determine if a worker is in fact 
authorized is no better than the Social Security card. Madam 
Chair and Members, this card was produced in the 1930's. This 
is what employers are asked to use to verify if a worker is 
authorized to work in the Nation. And as many will tell you, 
the forgeries are better than what the U.S. Government are 
producing, and so it puts the employer in a very, very 
difficult position.
    We must strike a balance between securing our borders and 
safeguarding our prosperity. The Greater Houston Partnership 
recognizes the need to secure our borders. Make no mistake, we 
strongly support that.
    But we also support an immigration law that will allow 
employers, through an efficient, temporary worker program, to 
recruit both the skilled and the unskilled immigrant workers 
where there is a shortage of domestic workers. We further 
believe that employers should be responsible for verifying the 
legal status of those that they hire.
    Believe it or not, we believe that there should be 
penalties and fines for businesses that willfully and knowingly 
hire undocumented workers. To this end we support the creation 
of a fast, reliable employment verification system. We oppose 
laws that would increase civil and criminal penalties on 
employers that don't provide viable, legal options for hiring 
these skilled and semi-skilled workers.
    Our partnership has 130 board members, and we unanimously 
have approved a resolution that has involved our involvement, 
and the America's immigration reform is a part of that 
creation.
    I know my time has expired, Madam Chair. So I will withhold 
any further comments.
    [The prepared statement of Mr. Moseley follows:]
                   Prepared Statement of Jeff Moseley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
    Ms. Lofgren. Thank you very much.
    Dr. Camarota, we would be happy to hear from you now.

 TESTIMONY OF STEVEN A. CAMAROTA, DIRECTOR OF RESEARCH, CENTER 
                    FOR IMMIGRATION STUDIES

    Mr. Camarota. Well, first I would like to say that I would 
like to thank the Subcommittee for inviting me to testify today 
on this important issue. I have to say that I am getting over a 
bad case of pneumonia so if I cough a lot you will just have to 
understand. Maybe I will do it in dramatic fashion and add to 
the seriousness of my testimony.
    My primary goal today is to clear up some of the confusion 
that often surrounds the issue of immigration and the economy. 
In particular, I will try to explain the difference between 
increasing the overall size of the U.S. economy and increasing 
the actual per capita GDP of the United States. I will also 
touch on the separate but a related issue of taxes paid versus 
services used, the impact on taxpayers.
    Now, if we wish to know the benefit of immigration to the 
existing population, then of course the key measure is the per 
capita GDP of the United States, or I should say the per capita 
GDP particularly of the existing population, if that is what we 
want to know, not how much bigger immigration makes the U.S. 
economy, which it clearly does do.
    We could see the importance of per capita GDP just by 
remembering that Mexico and Canada have very roughly the same 
size economies, but they are not roughly equally rich because 
Mexico has three times as many people and thus its per capita 
income is much lower.
    Now, there is actually a very standard way in economics to 
calculate the benefit from immigration that actually goes to 
the existing population of people that is either the native 
born or the immigrants already here when you begin your 
analysis. It is based on a noncontroversial formula laid out by 
Harvard economist George Borjas. The method was used by the 
National Academy of Sciences in its 1997 study. It was used by 
the President's Council of Economic Advisors in their 2007 
study. It is very much agreed on by economists.
    Now, although the economy is much larger because of 
immigration, the formula shows that only a tiny fraction of 
that increased economic activity goes to the native born 
population. Based on 2009 data, this simple calculation shows 
that the net benefit to natives from immigration should be 
about one-fourth of 1 percent of GDP, or about $33 billion. 
Thus, the net benefit of immigration to the existing population 
is very small relative to the size of the economy.
    Second, and this is very important, the benefit is entirely 
dependent on the size of the wage losses suffered by the 
existing population of workers. If there is no reduction in 
wages for the native born, there is no benefit. Now the wage 
losses suffered by American workers based on the same formula 
is about $375 billion, about 12 times bigger than the benefit, 
but what is important to understand is the wages don't 
disappear into thin air. They are retained either by employers 
in the form of higher profits or they get passed on to 
consumers, or more skilled workers who aren't in competition 
with immigrants may benefit as well.
    So the way it works out is that wages for those in 
competition with immigrants are reduced by about $375 billion, 
given the size of the immigrant population today, but the 
people who gain, the business owners and so forth, gain about 
$408 billion for the $33 billion net benefit.
    Now, sometimes people say, well, I don't think Americans 
and immigrants compete ever for jobs, but the fact is that is 
not what the research shows. There are about 465 occupations in 
the United States, based on the Department of Commerce 
classification, and only four are majority immigrant. The vast 
majority of nannies, maids, busboys, and forth, meat packers, 
construction laborers, janitors in the United States are all 
U.S. born. And unfortunately, there has been a very troubling 
long-term decline in wages for less educated people who do this 
kind of work, and this is exactly what we would expect to see 
as a result of immigration. As immigration has increased, wages 
at the bottom end of the U.S. Labor market have generally 
fallen, which is certainly an indication that we don't have a 
shortage of that kind of workers.
    Now, there is also the fiscal impact. When the National 
Academy of Sciences tried to look at this question, they found 
that the fiscal impact was enough to eat up the entire economic 
gain. So if you put the economic gain with the fiscal impact, 
you get no benefit at all, it would seem.
    Now, the problem is you have also made the low income 
population poorer in the United States. They absorb a lot of 
that $375 billion in wage losses.
    In conclusion, if we are concerned about low-skilled 
workers, and that is only one thing to think about, then 
reducing the level of immigration would certainly make sense, 
particularly unskilled immigration. Certainly we can do so 
secure in the knowledge that it won't harm the U.S. economy. At 
the very least, those who support the current high level of 
immigration should understand that the American workers harmed 
by that policy they favor are already the poorest and most 
vulnerable.
    Thank you.
    [The prepared statement of Mr. Camarota follows:]
                Prepared Statement of Steven A. Camarota

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Ms. Lofgren. Thank you very much, and thanks to all of the 
witnesses for your testimony.
    Now is the time when Members of the Subcommittee have an 
opportunity to pose questions to our witnesses, and I would 
turn first to the Ranking Member of the Subcommittee, Mr. King, 
for 5 minutes and whatever questions he may have.
    Mr. King. Well, thank you, Madam Chair. It is interesting 
testimony. I was watching the witnesses as they listen. I would 
first ask Mayor Bloomberg, what did you think of Dr. Camarota's 
testimony and how would you respond to the presentation that he 
has made?
    Mr. Bloomberg. I am not a----
    Ms. Lofgren. Could you turn your microphone on, please.
    Mr. Bloomberg. I am not an expert on the whole country. I 
can just tell you about New York. I run a city of 8.4 million 
people, 40 percent of which were born outside of the United 
States and 500,000 we think are undocumented.
    Number one, Mr. Camarota must have a different cohort that 
he is studying. If you take a look at this country, if we have 
11 or 12 million undocumented, it is because there are jobs 
that are going unfilled here. We did have comprehensive 
immigration reform in 1986 with no teeth whatsoever.
    Mr. King. Thank you, Mayor. I am sorry, my clock is 
ticking.
    I see that is in your testimony, the statements that you 
made and there is references to studies, but it doesn't say 
which studies would be rebuttals to Dr. Camarota. Do you know 
which studies you referenced?
    Mr. Bloomberg. Yeah, the study is what goes on every day in 
New York City. Rupert and I together employ about 75,000 
people, so we know a little bit about job creation. And he is 
an immigrant, I am an immigrant to New York from Boston. I 
don't know whether that makes me a real immigrant or not. But I 
can just tell you in New York City the issue is not the 
undocumented, the issue is how we create jobs for the people in 
New York who are unemployed and can't find jobs.
    Mr. King. And when you use the term ``immigrant'' in your 
testimony, does it mean, does it include illegal immigrant?
    Mr. Bloomberg. It does. And the reason we have illegal 
immigrants here is because of Congress' inability and 
unwillingness to pass laws where employers can figure out who 
is documented and who isn't. And it is just duplicitous for 
Congress to sit there and say they shouldn't do it and then not 
give them the tools.
    All of us have the problem of trying to figure out whether 
or not that Social Security card was bought for 50 bucks or 
issued by the Federal Government.
    Mr. King. It seems to be universal here among the witnesses 
that--or at least unanimity about closing and securing the 
borders. I see that in your testimony, Mr. Murdoch's, I believe 
it was in Mr. Moseley's testimony, and I don't know that Dr. 
Camarota addressed that.
    Here is where the tension is in this. We have more than a 
generation of promises to enforce immigration law, and that 
includes specifically securing the border. And as I hear this 
presentation, it includes also that same promise, but why 
should Americans--I am going to ask Mr. Murdoch this question--
why should Americans accept a promise again that we would 
enforce immigration laws in exchange for a path to citizenship 
to people that, if I remember your language in here, was for 
people that were illegals who are responsible and law abiding. 
I think that actually precludes those people from being 
included in that, but why should Americans accept that promise 
again? There have been empty promises going far back to not 
quite--I think Dwight Eisenhower is the last man that actually 
followed through on enforcement.
    Mr. Murdoch. Congressman----
    Ms. Lofgren. Could you turn your microphone on, please, Mr. 
Murdoch?
    Mr. Murdoch. I am sorry.
    With respect, you don't have to accept any promises. You 
are the people who make the laws in this country, and you are 
the people who have to make sure they are enforced. It is not 
up to me as a private citizen. I will support you if you do it 
of course. But you say why should you accept a promise. It is 
up to you to keep the promise.
    Mr. King. Okay, let me respond to that, and it is this, 
that I have been in the business now and closing out my eighth 
year of seeking to embarrass the Administration into enforcing 
immigration law. I mean, Congress can't enforce the laws, we 
can only appropriate or not appropriate, set the policy and 
then seek to embarrass the Administration into enforcing if 
they don't have the will, and it has gotten worse.
    So I appreciate your point and your testimony.
    I turn to--watching the clock tick--Dr. Camarota. Here is 
the tension, and I just ask the question this way, and that is 
we have a net cost that I talked about in my opening statement 
of 19,000 and a half for the immigrant costs of--the low-
skilled immigrant costs of Dr. Robert Rector's testimony, or 
his study. And you have your economic analysis here that makes 
sense to me, and you make the point that--and I have said 
often--that we need to be in the business of increasing the 
average annual productivity of our people.
    Now, but the question that comes back is how many are too 
many? How much can this country sustain? No one seems to be 
asking the question of when have we opened our borders too much 
so that we get--the overburden of this economy can't recover 
from it. Do you have any numbers on that? Do you have an 
analysis of it? Do you have an opinion of it?
    I mean, I would just imagine this, that if we let a billion 
people into America next year that would bury us. We would not 
be able to sustain that and it would change our culture 
forever. So where is the line, in your opinion? Do you have any 
analysis that addresses that?
    Mr. Camarota. Well, like most people, I just think that we 
should have an immigration policy that seeks to benefit the 
existing population of the legal immigrants and the natives 
here, and we should try as much as possible to avoid hurting 
the people at the bottom. There is about 24 million people with 
no education beyond high school, these are working age people, 
who are currently not working in the United States. Their 
situation has gotten worse and worse. And to keep flooding the 
unskilled labor market with immigrant works just doesn't make 
sense from that point of view.
    Mr. King. Thank you. Thank you, all the witnesses. Madam 
Chair, I yield back.
    Ms. Lofgren. The gentleman's time has expired. I would 
recognize now the gentlelady from California, Ms. Waters, for 5 
minutes for questions unless she would like to defer.
    Ms. Waters. Well, no. Thank you very much, Madam Chair, 
very much for holding this hearing. And I thank our witnesses 
here today, Mayor Bloomberg and Mr. Rupert Murdoch, Moseley and 
Camarota.
    I think that the outline of your proposed immigration 
reform approach is a good one and it really mirrors pretty much 
what many of us have been discussing here in Congress. I don't 
see any great difference in what appears to be evolving here. 
But I am curious about one thing.
    Mr. Murdoch, both you and Mr. Bloomberg have the 
possibility of doing a lot of education. You are very powerful, 
with your media networks, and you are able to disseminate a lot 
of information, and to flame issues. And for Mr. Murdoch, it 
does not appear that what you are talking to us about today and 
the way that you are discussing it is the way that it is 
discussed on Fox, for example.
    Why are you here with a basically decent proposal, talking 
about the advantage of immigrants to our economy, but I don't 
see that being promoted on Fox. As a matter of fact, I am 
oftentimes stunned by what I hear on Fox, particularly when you 
have hosts talking about anchor babies and all of that. Explain 
to me, what is the difference in your being here and what you 
do not do with your media network?
    Mr. Murdoch. Ms. Waters----
    Ms. Waters. I can't hear you.
    Ms. Lofgren. Could you turn your microphone on, please?
    Mr. Murdoch. I am sorry.
    Ms. Waters. Yes.
    Mr. Murdoch. We have all views on Fox. If you wish to come 
and state these views, we would love to have you on Fox News.
    Ms. Waters. No, I don't want to be on Fox News. That is not 
what I am talking about. I am talking about----
    Mr. Murdoch. We don't censure that or take any particular 
line at all. We are not anti-immigrant on Fox News.
    Ms. Waters. What do you do to promote the same views that 
you are here talking with us about? How do you see that?
    Mr. Murdoch. We do it in the Wall Street Journal every day.
    Ms. Waters. I beg your pardon?
    Mr. Murdoch. We do it in the Wall Street Journal every day.
    Ms. Waters. Not really.
    Mr. Murdoch. I can't----
    Mr. Bloomberg. Let me also say Rupert is one of the 
founders of our coalition of mayors and business people to 
encourage Congress to give us comprehensive immigration reform 
so that we can get the people that we need to create the jobs 
that are----
    Ms. Waters. Mr. Major, I appreciate that. And that is why I 
started out by saying, I am very grateful that you guys are 
here and what you are saying, but I am trying to point out the 
contradiction between Mr. Murdoch being here saying these 
wonderful things about immigration reform and the contribution 
that immigrants make to our economy and our society, and I 
don't see you promoting that in any way with all of the power 
and ability that you have to do that. And I am trying to find 
out what is the difference, what is the contradiction, why 
don't you use your power to help us to promote what you are 
talking about?
    Mr. Murdoch. Well, I would say that we do with respect--we 
certainly employ a lot of immigrants on Fox, and in all arms of 
Fox, but you are talking about Fox News. We have many 
immigrants there, and we do not take any consistent anti-
immigrant line. We have certainly debates about it from both 
sides.
    Ms. Waters. So let me just be clear about what you are 
saying. You are saying that the position that you have with 
this coalition that you guys are leading is a position that you 
are an advocate for and you would support daily with your 
ability to disseminate news and information, you think you are 
doing that?
    Ms. Lofgren. The witness can answer. The gentlelady's time 
has expired.
    Mr. Murdoch. I have no trouble in supporting what I have 
been saying here today on Fox News and would go do so 
personally, nor would a great number of the commentators on Fox 
News.
    Ms. Waters. Thank you, Madam Chair. Mr. Murdoch, I would 
just suggest that you do that. Thank you so very much.
    Ms. Lofgren. The gentleman from Texas, the Ranking Member 
of full Committee, is recognized for 5 minutes.
    Mr. Smith. Thank you, Madam Chair. Mayor Bloomberg, you and 
I agree that highly skilled immigrants do create businesses, do 
create jobs and we need to welcome more of them. You had this 
statement--this sentence in your statement: There are one 
million high-skill jobs that companies cannot fill because they 
cannot find the workers.
    To my knowledge, we have only had 39,000 applications for 
the highly skilled H-1B visas and I just wondered what your 
source was of one million.
    Mr. Bloomberg. We have done a survey of high-tech companies 
of what the needs are for doctors in this country. Doctors and 
nurses, for example----
    Mr. Smith. If you can share that survey with us, because 
you would assume that if they had the need they would be 
applying for these visas, and that doesn't seem to be the case.
    Mr. Bloomberg. No, we would be happy--one of the problems 
we are having, I can just tell you in my company, is that when 
we try to get overseas workers to come here, a lot of them say, 
I don't need the aggravation of going through the American 
bureaucratic process at the border, and I don't want to go to a 
country that is less welcoming.
    Mr. Smith. For good or for bad, we do need to have 
individuals who want to come to this country fill out forms. We 
just can't let everybody in.
    Mr. Bloomberg. Nobody is suggesting that we shouldn't do 
that.
    Mr. Smith. Okay. Give me the study that seems to conflict 
with the actual actions about high-tech companies themselves, 
if you would.
    Mr. Murdoch, I have a study that is going to be delivered 
in just a minute because there was an independent study done 
that actually showed that Fox was the most fair of all 
television news programs. If you are coming from a liberal 
perspective, it might seem conservative. But to the objective 
observer, Fox actually has both sides more often than the three 
networks, and I will put that in the record in just a minute.
    My question, Mr. Murdoch, is this, and let me preface it by 
saying I know you are familiar with the E-Verify program that 
is used by businesses to make sure that they hire legal 
workers. The Federal Government uses it, 13 States use it, over 
200,000 businesses voluntarily use the E-Verify program. And I 
am hoping that the businesses you own also use the E-Verify 
program, which is about 95 percent accurate. The 5 percent are 
either people in the country illegally or fraudulent Social 
Security cards. But you don't have to answer if you don't want 
to, but maybe let's just say I encourage you to have your 
businesses use the E-Verify. -
    Mr. Murdoch. We do not have any illegal immigrants on our 
payroll.
    Ms. Lofgren. Could you turn your microphone on please, Mr. 
Murdoch? 
    Mr. Murdoch. I think I can guarantee you that we have 
absolutely no illegal immigrants on our payroll.
    Mr. Smith. Okay. And is that because of the E-Verify 
program or----
    Mr. Murdoch. On my personal payroll or anything.
    Mr. Smith. How do you know that to be the case? Do you 
screen them out using the E-Verify program?
    Mr. Murdoch. Certainly.
    Mr. Smith. Okay, great. Good to hear.
    Mr. Moseley, your testimony reminded me not only of the 
influence of immigrants and their contributions but of the fact 
that in San Antonio, my hometown, in the early 1900's there 
were street signs in three languages. The first language was 
German, the second language Spanish, and the third language was 
English. And so we can all appreciate our heritage in that 
respect.
    Mr. Camarota, let me ask a couple of questions to you, and 
that is--two questions. First of all, who is hurt by our 
current immigration policies and who might be hurt if we were 
to suddenly legalize say 12 million people? So two separate 
questions there.
    Mr. Camarota. Immigration has a much larger affect on the 
bottom end of the U.S. Labor market. For example, 5 percent of 
attorneys in the United States are foreign born and less than 1 
percent are illegal. Maybe 8 percent of journalists in the 
United States are foreign born. So they don't face much job 
competition, but it looks like around 40 percent of maids and 
housekeepers are foreign born. And similar statistics for, you 
know, taxi drivers, 25 percent of janitors are. So they are the 
people who are hurt, nannies maids, busboys. These are mostly 
people who have a high school degree, or they are people who 
didn't graduate from high school. And their situation looks 
terrible over the last 3 decades in terms of real wages, in 
terms of benefits, and in terms of the share holding a job, 
which is what exactly what we exact if immigration was 
adversely affecting them.
    Mr. Smith. You say in your testimony that $375 billion in 
wage losses are suffered by American workers because of 
immigration. How do you reach that figure?
    Mr. Camarota. Well, it is a pretty straightforward formula, 
and like you said, it is what the National Academy of Sciences 
use. It is called a factor proportions approach, pretty 
straightforward. You have to estimate what you think the impact 
is on wages, then you have to know what fraction of the economy 
are workers; that is, wages, and then you can estimate the 
overall size of that impact. And then you can also estimate 
what are the gains that come from that impact.
    But the important point, if you are interested in the 
losers, is that a lot of that lost wages is absorbed by people 
at the bottom end of the labor market, and a lot of winners are 
the most educated. They are people with a college degree. They 
are like journalists and lawyers. They are owners of capital, 
and that is something we should be thinking about.
    Immigration is primarily a redistributive policy from 
people at the bottom sort of to everybody else, and it depends 
on how you feel about that, but that is a big question that 
needs to be answered.
    Mr. Smith. Thank you, Mr. Camarota. Thank you, Madam Chair.
    Ms. Lofgren. The gentleman's time has expired. I would turn 
now to the gentleman from Chicago, Mr. Gutierrez, for 5 
minutes.
    Mr. Gutierrez. Thank you very much. First, I want to thank 
you all for taking time. I want to give a special thanks to 
Mayor Bloomberg for visiting with me on Martin Luther King's 
birthday in Chicago. It was a wonderful meeting. It was a quiet 
meeting, but it was a productive meeting. And you told me then 
you were going to engage mayors and others in a campaign to 
bring about comprehensive immigration reform to fix our system. 
And you know something, you have done it and I a congratulate 
you and tell you that I wish you Godspeed in all of your 
endeavors.
    And to the men sitting immediately to the left of you, to 
Mr. Rupert Murdoch, I thank you for being here this morning and 
for joining with Mayor Bloomberg in this effort. I think it is 
an important effort from the business community to talk about 
how it is we transform America and make it a vital, energetic, 
economic engine of the future.
    Mr. Moseley, I look forward to coming back and visiting 
with you back in Houston. You have a wonderful group of people.
    Again, who do we have here this morning? Businessmen, men 
who create jobs of commerce and industry. And that should be 
the focus, I think, about a lot of the debate around 
immigration.
    Let me just say, look, the good thing about the three 
proponents of comprehensive immigration is that we don't deny 
the fact that undocumented workers do reduce the wages of 
American workers. Nobody is going to deny that fact. So how do 
we fix it? Well, when we legalize all of the workers, the 
salaries of all of the workers rise at the same time, and you 
have fairness and parity. As long as you have an underclass of 
people that is exploited, you know who benefits? Unscrupulous 
employers and others, and the wages go down.
    I like the fact that businessmen have come here, one of the 
few times businessmen have come here to say I figured out a way 
to increase wages for American workers because that is 
essentially what they have said here today. So we don't 
disagree with that.
    But they come with a fundamental, I think, fairness in 
saying we are going to secure--I heard Mr. Murdoch say, We are 
going to secure our borders, and that is critical and essential 
to any comprehensive immigration bill. I heard them say we are 
going to have a verification system that punishes corporations 
and companies. That is what they said. I have got businessmen 
coming here telling me, I want a law to punish businessmen who 
hire undocumented workers here in the United States of America.
    I think that is what is wrong with the debate. We don't 
listen to one another, and we don't listen and find that common 
ground which does exist in our debate.
    And lastly, we have people who come here with some 
sensible, because here is one thing, E-Verify? Madam 
Chairwoman, we had a hearing here. We spent millions of 
dollars, and here is what we found about E-Verify. In half of 
the instances, it had a false reading. That means you are just 
as likely to hire an undocumented worker as not if you use E-
Verify even though the government has said that that is the--it 
is not the road. The road is to bring everybody and take those, 
as Mr. Murdoch has suggested earlier today, those that are law 
abiding, and by that we mean yes, they have an immigration 
problem but in every other instance they are just as much 
Americans as everyone. They need a piece of paper. Because in 
2004, what did we read? We read about that young Corporal 
Gutierrez, the first to die--illegally entering the United 
States and the first to die in Iraq. Let us tell.
    So I just want to transition back to you, Mr. Murdoch, and 
ask you a question because I think it is like that.
    What is it? That proverbial 9,000-pound gorilla that is in 
the room, elephant that is in the room. I wake up really early 
sometimes. 6:10 in the morning in Chicago means I have got to 
get up at 4:15 so I can get down to Fox News for those 30 
seconds that I am there in the morning. And I have gotta tell 
you I have been on many programs. I am invited all the time, 
and I take the opportunity. And I don't do it because I believe 
that somehow I am going to reach voters that like Mr. Gutierrez 
that day. The phone calls I get back at my office are not 
positive phone calls generally when I am on Fox News.
    Now, I just want to share with you that I am happy you are 
here. I thank you for everything, but I have to tell you that 
many times, how do we find that we tell the story of Corporal 
Gutierrez on Fox News more often? How do we tell these stories 
so that there is more of a balance, so there is security and we 
get to talk, because I see many times--I just share with you 
and I speak to you as someone who welcomes you, who embraces 
your effort to say to you as your partner in this effort that 
we do more.
    Ms. Lofgren. The gentleman's time has expired.
    We will turn now to Mr. Poe for his 5 minutes of questions.
    Mr. Poe. Thank you, Madam Chair.
    For some reason I don't understand why some of the 
witnesses do not make the distinction between people that are 
here legally from other countries and people that are here 
illegally from other countries. There is a difference between 
people that are here legally, came the right way, did the right 
thing, even waited, and those people who just flaunted the laws 
and other reasons and came into the United States and now 
expect us to give them amnesty.
    I want to make it clear. I think amnesty is a bad idea. 
History has proven it hasn't worked. So what do we do? The 
proposal is let's do it again. Maybe the results will be 
different. I don't think so.
    Houston area, just a couple of that statistics. Eighteen 
percent of the people in county hospitals in Houston, Texas, 
are illegally in the United States. Sixty-seven percent of the 
births in LBJ County Hospital over the last 4 years, 67 
percent, are born to mothers who are illegally in the United 
States.
    Now, somebody pays for that. And who pays for it? It is 
citizens and it is legal immigrants.
    I represent southeast Texas, and these are about real 
people. I have an individual who runs a carpet laying business. 
He is a legal immigrant. He hires legal immigrants. They all 
got here the right way. They are all paying taxes, including 
him. But his competition is down the road where a person hires 
only illegals, undercuts the legal immigrant and what he is 
paying the legal immigrants that work for him and putting him 
out of business.
    Now, that is the competition. It is not between Americans 
and immigrants. In this case, it is between legal immigrants 
and people that are here illegally. And that is because nobody 
is being held accountable for being here illegally. And the 
employer is not being held accountable for knowingly and 
intentionally hiring folks so he can undercut whoever his 
competition may be.
    And so I see a distinction and I think we have to resolve 
that issue. This is a three-part problem, and I have always 
seen it as three parts.
    The first solution is we have to stop folks coming here 
without permission. It is called border security. We don't have 
border security. If you believe we have border security, I will 
take you to the Texas-Mexico border and you can watch for 
yourself. Of course it is not safe down there. You won't want 
to go down there. But we don't have border security, we need to 
have it, including, as I believe, the National Guard if 
necessary.
    But the second issue is not what do we do with the illegals 
that are here. The second issue is we have got to reform the 
immigration system. In my opinion, it is a disaster. It takes 
too long to get people in here the right way. My office spends 
more time on immigration issues helping people come into the 
United States the right way than it does any other issue except 
military issues.
    So the model, the immigration model we operate under, in my 
opinion, doesn't work. We gotta fix that. That is the second 
thing that has to be done.
    What do we do with the people that are here? Well, many of 
them we talk about amnesty and making citizens out of them. Not 
all of them want to be citizens. They just want to have the 
opportunity to work in the United States. But they don't want 
to be citizens. They aren't asking to be Americans. So we can't 
lump them all into the philosophy we need to make citizens out 
of them because they have been here so long. I don't agree with 
that at all.
    But we go after the employers and make sure that they are 
held accountable and the attrition and not being able to work 
in the United States unless you have permission to be here, 
that might solve part, not all of the problems.
    So it is a three-part process. I think we can solve those 
problems in that way.
    Mayor, I want to ask you one question. Do you make a 
distinction between people here legally--just a second. Let me 
ask the question, Mayor.
    Mr. Bloomberg. Congressman, I think you laid it out better 
than I could have possibly laid it. There are three prongs 
here. We have to do it.
    What frustrates the American public and the reason you see 
the frustration in the polls, both to throw the incumbents out 
on both sides of the aisle, is that we can't understand why you 
guys complain about immigrants coming over the borders 
illegally and then don't do anything about it. It is a 
Republican and Democratic President that you have talked about 
here who have not stopped illegal immigrants, they have not put 
the forces at the border we need, and we have not given the 
business community the tools they need to stop the demand. It 
is a supply and demand problem.
    Number two, we do not give the visas we need. This country 
is hollering out for doctors because we won't give green cards 
to the doctors that we train and we need. You couldn't be more 
right.
    And number three, you have this problem of 11-odd million 
people here who are undocumented, who broke the law to get 
here--and incidentally so did their employers who encouraged 
them to come, so did Congress that passed immigration reform in 
1986 without any teeth, of all of the duplicitous things it has 
ever done. Yes, we have a problem. Let us do something about 
it. But anybody that thinks that we are going to go and deport 
11 million people, it is just literally impossible.
    Mr. Poe. Reclaiming my time. Excuse me, Mayor, I am 
reclaiming my time.
    May I have unanimous consent for 1 minute?
    Ms. Lofgren. The gentleman is recognized by unanimous 
consent for an additional minute.
    Mr. Poe. Thank you, Mayor. You didn't hear me say anything 
about deporting anybody. It is a three-part process. Just a 
second, Mayor, I am talking. Sorry.
    Just go to the first one. What do you think about putting 
the National Guard on the border? Do you support a concept like 
that or not to secure the border?
    Mr. Bloomberg. I support the Federal Government putting 
whatever resources they need, and I don't know whether that 
should be the National Guard or Homeland Security. That is not 
my job. I don't know that. But they should have forces on the 
border.
    But you will never be able to put enough forces there 
unless you end the demand, and that is where companies hire 
undocumented and the companies say that they can't tell the 
difference, and Congress does not help them in being able to 
tell the difference and having a penalty if they break the law 
as well. People are coming in and breaking the law and the 
people who are hiring are breaking the law and we should be 
after both. I think you are 100 percent right.
    Mr. Poe. Thank you, Mayor. I yield back.
    Ms. Lofgren. The Ranking Member of the full Committee 
wanted to be recognized for a unanimous consent request.
    Mr. Smith. I would like to ask unanimous consent to put 
into the record a study by the nonpartisan Center for Media and 
Public Affairs that found that coverage on Fox News was more 
balanced than any other network and also a public policy 
polling survey that found that half of Americans trust Fox 10 
percentage points more than any other. And a separate poll by 
McLaughlin and Associates found that 36 percent of Americans 
list Fox as the most trusted source of news about politics and 
government, by far the highest total of any network. ABC, CBS, 
NBC, and MSNBC each received less than 7 percent.
    That is a long UC.
    Ms. Lofgren. It is a very long UC. I would note that 
although I am sure that Mr. Murdoch is pleased by the comments, 
the relevance to the hearing is a bit tenuous, but without 
objection, the surveys will be made part of the record.
    [The information referred to follows:]
    ******** COMMITTEE INSERT ********
    Ms. Lofgren. I would now turn to the gentlelady from Texas, 
Ms. Jackson Lee, for her 5 minutes of questions.
    Ms. Jackson Lee. Madam Chair, I think it is appropriate to 
thank you for your continuing persistence. We have been on this 
journey I believe for a long time and in your leadership. I 
think we can count, if you will, tens upon tens of hearings on 
this issue.
    To the gentlemen who are gathered, thank you so very much 
for your presence here today, and I have to express, Mayor 
Bloomberg, a sense of pride having first started out my 
educational tenure at New York University for a brief period of 
time but certainly having the great affection for the city, but 
proudly now with the City of Houston, expressing a great sense 
of pride in the greater Houston partnership, their leadership, 
and Jeff Moseley for frankly taking the lead.
    I will answer the question. Congress should do something. 
Lamar Smith knows that we sit together on this Committee myself 
as the Ranking Member and Lamar Smith during that time as the 
Chairman on the Subcommittee on Immigration, and frankly we 
should have done something then.
    It is difficult to bark and have no teeth. Congress has 
been barking. We have been in conflict. We have opposed each 
other, the two distinct sides of the aisle, if you will, and 
done nothing.
    And I would ask myself the question, how many National 
Guard and border security can you put at a border and think 
anything is going to occur for people who are struggling and 
desperate and are coming into this country to work?
    So it is a chicken-and-egg situation and frankly you need a 
system of laws that allows people to enter the country fairly 
so that you can stop the onslaught of those of who say I am 
simply coming, and we know it is because during this recession, 
Mayor, Jeff, and to all of you, you have seen a downsizing of 
sorts of those coming across the border. They want to work.
    So I think the question that I would like to build on and 
the series of questions is one, I think the business community 
has a remarkable opportunity to be able to speak eloquently to 
this issue that we must do something. Mayor Bloomberg, you have 
communities in the City of New York that live alongside of each 
other and it is called the ``little this'' and the ``little 
that'' in terms of communities. They develop business and 
tourists come there because of the enrichment of the diversity 
of New York City.
    So my question is to you, first of all, is how do we get 
past the enforcement-only concept, which does not work? If we 
go to the border of Mexico, we will find bloodshed on the 
Mexican side as it relates to drugs as much heavy equipment and 
enforcement that that poor government has implemented. They 
tell us we have to stop being consumers. They have a point.
    What is your input about enforcement--only?
    Mr. Bloomberg. Congresswoman, I thought actually 
Congressman Poe laid it out. There are three issues here, and 
unless you address all three issues at the same time, you 
cannot solve the problem. It will just be another photo op and 
another chance to pander for Congress. Congress has got to 
stand up and do something and the American public, if there is 
any message coming out of what looks like what is going to 
happen in November, it is that the public is tired of Congress 
talking about things and not doing anything. You have got to 
get border security, which means enforcement but also reducing 
the demand. You have got to give the visas to people that we 
need to grow our economy, to provide medical care, to create 
jobs, and you have got to do something about 11 million people 
who broke the law admittedly to get here, but did so with the 
outright complicity of Congress and the business community.
    And unless you do all three at the same time, 
Congresswoman, we are going to be here talking about this again 
and again and again.
    Ms. Jackson Lee. You cannot do law enforcement only.
    Mr. Bloomberg. You cannot do law enforcement only.
    Ms. Jackson Lee. I have occasions to agree with my good 
friend from Texas, but I do believe that we are not going to 
get away from looking at the benefit side of the question and 
enforcement is not the only issue.
    Mr. Murdoch and Mr. Moseley.
    Mr. Murdoch, I will come on Fox News if, as Mr. Lamar Smith 
has indicated, that you are overly fair. But I think the story 
needs to be told as you are fair, you have to be convincing to 
your viewers. I don't know how convincing you have been to your 
viewers.
    But the question is you have your story to tell of 
immigration success, and I would ask the question do you have 
one thing that you think the Congress should immediately 
address?
    And Mr. Moseley, would you talk about the business 
investment and are you familiar with the EB-5 employment based? 
That is something that has been a valuable tool that is in 
complete confusion. Tell us how Houston has benefited on this 
question of that kind of investment.
    Mr. Murdoch, can you give us what you think should be the 
first attack or approach that we need to have the American 
dream for immigrants as you have secured?
    Ms. Lofgren. The gentlelady's time has expired. So we will 
ask the witness to answer briefly.
    Mr. Murdoch. I am sorry?
    Ms. Jackson Lee. You have indicated that the American dream 
is now part of your life. What should Congress do, who should 
we be impacting as it relates to fixing the immigration system? 
What should be the first thing we should do? You recognize you 
are undocumented here in this country. You want us to find a 
way for pathway to citizenship for them? You want us to get 
more visas for those who come in that are professionals? What 
do you want us to do?
    Mr. Murdoch. All of the above, I think. Obviously we know 
about the enforcement has to be done, at the same time whether 
it be at the border or whether it be against employers hiring 
illegal people.
    But you know we are in urgent need in this country. Our 
education system is failing us very badly. Thirty-five percent 
of children in high school are dropping out and dropping out 
and committed to the underclass for life. That is another 
national scandal. And there is so much to do in this country if 
you want to restore the American dream.
    Ms. Jackson Lee. But not deportation of the 11 million.
    Mr. Murdoch. I am not for deporting 11 million, no.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. May I yield an additional 30 seconds for 
my constituent from Houston to answer?
    Ms. Lofgren. Yes, you may.
    Ms. Jackson Lee. Thank you, Madam Chair.
    Mr. Moseley. Congresswoman, Madam Chair, Houston is putting 
in place the EB-5 application to Homeland Security. That is a 
tool that we are very pleased the U.S. Government has fine-
tuned over time to allow foreign investors to strategically 
invest in census tracks that have high unemployment. This 
follows a model that worked very well for Chinese capital that 
was leaving Hong Kong about a decade ago when there were 
questions about the central party taking over Hong Kong, and 
that money went to Canada and Australia because our law wasn't 
as flexible as it is now. So we are very pleased that EB-5 is 
going to allow foreign investors to come and invest in the 
American economy and grow jobs through that investment.
    Ms. Lofgren. Thank you very much. The gentlelady's time has 
expired, and we will recognize now the gentlelady from 
California, Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you, Madam Chair, and I want to thank 
our panelists for being here this morning to talk about this 
issue.
    I want to begin with Mayor Bloomberg. There is a lot of 
debate in Congress and there has been for quite some time over 
what the best solution is, and while people fight over what the 
best solution is the status quo continues, and I am of the 
personal opinion that the status quo is simply not acceptable 
any longer. But I am interested in knowing if you think that it 
is a better idea to try to fix our immigration system through a 
series of stand-alone bills or whether or not you favor a 
comprehensive approach that would try to hit all the parts at 
once.
    Mr. Bloomberg. Congresswoman, it just depends on whether 
you want it to work or not. If you don't want it to work, do 
separate ones and I guarantee you we will be back here 10 years 
from now. If you want to fix the problem, you have to do it all 
together.
    I also think from a political point of view probably the 
only way that you would get it through Congress and through the 
White House is one comprehensive bill where everybody gets 
something, not everybody gets everything they want.
    Ms. Sanchez. Thank you, Mr. Bloomberg.
    Mr. Murdoch, I am interested in knowing and I am pleased to 
see you here today talking about this issue. How you feel about 
some of the anti-immigrant positions that are promoted by your 
network on issues like Arizona's recent immigration law?
    Mr. Murdoch. I don't think we do take an anti-Democratic 
position. We are very happy to welcome any Democrats onto Fox 
News.
    Ms. Sanchez. No, I didn't say anti-Democrat. I said anti-
immigrant stances on legislation such as the Arizona law.
    Mr. Murdoch. Well, I would not agree with that, but I will 
certainly go back and look at it.
    Ms. Sanchez. Do you favor Arizona's approach to 
immigration?
    Mr. Murdoch. My position on immigration is what I stated 
earlier, what I have restated here again. I am totally pro-
immigrant.
    Ms. Sanchez. I appreciate the answer.
    Mr. Moseley, one of the arguments that is often thrown 
about, particularly by many of my Republican colleagues here in 
Congress, is that illegal immigrants are bad people, that they 
should do it the legal way or do it the right way. And I am 
interested in knowing in your experience and perhaps experience 
of working with other businesses on the issue of immigration 
reform, do you think that our current immigration system is 
efficient? Do you think that it allows businesses to plan 
prospectively for future labor needs? Do you think that it is 
timely? Do you think it is well-tailored to fit the business 
needs in our country? Can you shed any light on that.
    Mr. Murdoch. No, I think it is terrible. I think the fact 
is we are missing a huge opportunity to be draining the best 
brains out of Asia and Europe to come and contribute to the 
human capital of this country and therefore the financial 
capital of everybody.
    Ms. Sanchez. Thank you. Mr. Moseley.
    Mr. Moseley. We would feel like the law is entirely broken. 
It is helter-skelter, and it is really catch is as catch can. 
There is an important time, as you heard testimony this 
morning, to really thoroughly take a look at the law. It is 
outdated. It needs to be contemporized. So the challenges are 
real, but the opportunities are tremendous.
    And one of the things that is not being discussed, and I 
think is left out of the calculus is that the American 
workforce is by and large getting to an age where there will be 
massive retirements. So the question becomes who shall do these 
jobs. If we look at Japan, which is demographically the oldest 
Nation in the world, which is also a closed community, their 
choice is they have to export their jobs because they are not 
importing their workforce.
    So we will come to that point where we are realizing the 
workforce is providing tremendous opportunities to those of us 
who are looking toward retirement, and the realities are 
dramatic. Now in the skilled workforce, we hear this regularly 
and often in Houston, particularly in the engineering 
community, where engineers are starting to retire and there is 
a huge need to find these workers to come in. Otherwise we have 
to export our jobs.
    Ms. Sanchez. I appreciate you talking about that specific 
point. I am just going to drill a little bit deeper on that.
    My understanding is that the birth rates in this country 
are not of a replacement rate, and yet we have a large number 
of the workforce that is getting ready to retire in the not too 
distant future. So if we are not replacing ourselves by having 
children, there is going to be a huge labor gap, and the 
question becomes where do we get those folks from.
    My understanding also is that many of the students that we 
teach and learn at our universities and many of skilled 
professions oftentimes come on student visas. After they have 
been here and obtained their degrees and they want to stay, 
then our immigration system effectively kicks them out of the 
country and says go back to where you came from.
    Does it make any sense to make that investment in the 
workforce and then send them out of the country?
    Mr. Moseley. No, we would argue that the DREAM Act should 
be enacted very quickly. We have had some incredible stories in 
the Houston area where children really have no choice. They are 
brought to this country as infants. They are educated with 
public taxpayer dollars all the way through university and 
cannot find a job because they are not legally documented. This 
is a tremendous resource for our workforce.
    Ms. Sanchez. Thank you very much, and Madam Chair, I yield 
back.
    Ms. Lofgren. The gentlelady's time has expired. I would 
recognize now the gentleman from California, Mr. Lungren, for 5 
minutes.
    Mr. Lungren. I am sorry. I had to go away for something 
else.
    I have been informed, Mr. Murdoch, you have referred 
several times to the fact that the Simpson-Mazzoli bill didn't 
have any teeth. I was here and we voted on it. It had teeth. It 
was never enforced, which I guess is the same thing.
    But that being the case, is there not a context in which we 
have to consider any legislation with respect to immigration? 
And that context is formed in part by the failure of Congress 
and subsequent Administrations to enforce the Simpson-Mazzoli 
bill.
    When I worked on that bill and delivered the Republican 
votes to pass that bill, one of the big arguments was that we 
had a balanced bill. We had the largest legalization in the 
history of the United States and we had enforcement. The 
legalization program worked fairly well. The enforcement was an 
absolute disaster.
    Doesn't that set a context in which to the world it has 
been said the United States will have these legalization 
programs every generation and therefore after if we have a 
similar legalization now, put people on the pathway to 
citizenship, won't that inevitably send a message that, well, 
even though they promised to enforce it in the future, the 
history has been that they have legalizations maybe every 20 
years, so isn't there an incentive for people to violate the 
law to come to the United States with the expectation that 
there will be a legalization in the future?
    Mr. Murdoch.
    Mr. Murdoch. Well, that is a problem of reputation, I 
guess. No, I think you have to start somewhere. You can't just 
say well, we haven't done it in the past so why shouldn't 
people trust us. You have got to start somewhere and make sure 
they do trust you by constant enforcement.
    Mr. Lungren. Let me ask another question for you and Mr. 
Bloomberg, and that is are the American people so out of--are 
the American people so disconnected with the reality that you 
and Mr. Bloomberg have expressed here that that is the reason 
why they, at least in the polls I have seen, reject the notion 
of a legalization program that would allow people who have come 
here illegally to get in front of the line of those who have 
waited to come here legally under the system.
    Mr. Bloomberg. You keep talking about Congress not doing 
anything and you are asking us. You guys should sit down 
together and say we have had Republican and Democratic 
Congresses and Presidents and you don't do anything. And then 
you say well, people think you are not going to do anything. So 
do something.
    Mr. Lungren. No, that is not my question. That was not my 
point at all. My point is are the American people so 
disconnected with the facts that you presented; that is, of 
the, it appears, unvarnished positive aspect of immigration, 
whether it is legal or illegal, that benefits our economy, that 
raises our GNP, that that is the reason why they believe that 
there is a distinction between legal and illegal immigration 
and its impact on their standard of living and the economy and 
the society in general?
    Mr. Bloomberg. Congressman, I think this is all about 
leadership. We need immigrants. That is the future of this 
country, and whether the public understands that or not, it is 
Congress' job to lead and to explain to them why our--we are 
going to become a second rate power in this world unless we fix 
our public education system and fix immigration.
    Mr. Lungren. Mayor Bloomberg, you have repeated that 
several times. That was not my question. My question was are 
the American people misguided in terms of their view of the 
fact of unvarnished benefit of immigration irrespective of 
whether it is legal or illegal, or is there a valid position 
taken by the majority of Americans that there is a distinction 
between legal and illegal immigration without then deciding 
what we should do?
    That is my question.
    Mr. Bloomberg. There is no question. You are right. There 
is a difference. People understand the difference and they want 
Congress to solve both problems. More legal immigrants, stop 
the illegal immigrants from coming here and do something about 
those who are already here. And I thought Congressman Poe 
really summed it up really nicely and Congresswoman Jackson Lee 
as well.
    Mr. Murdoch. May I just add, Congressman. Excuse me, Madam 
Chairman.
    You said that Americans were against illegal immigrants 
going ahead of legal ones.
    Mr. Lungren. Right, correct.
    Mr. Murdoch. No one has suggested that. That may be some 
pollster, the way they ask the question. You can get any result 
from a poll if you know how to ask the question.
    Mr. Lungren. I am sorry. That is not my point. My point is 
that when you talk about a pathway to citizenship as it has 
been articulated in the programs presented by the Congress and 
the previous Administration, it results in people who violated 
the law getting in front of people who had not violated the 
law.
    Mr. Murdoch. They shouldn't be in front of them.
    Mr. Lungren. Well, that is an important point.
    Mr. Bloomberg. I don't think anybody thinks they should.
    Mr. Lungren. Well, I beg to differ with you. The way a 
number of the proposals come forward when people are put on the 
path to citizenship, let us say they are from Mexico. Right now 
it takes 10 years to get--if you get in line in Mexico, you are 
going to have 10 years before you are going to have an 
opportunity to come to the United States. If you are in the 
Philippines, it is as much as 18 years. If we have a program 
that says because you have been in the United States illegally 
for X-amount of time, we are going to give you a special 
program by which you end up being able to go on the path to 
citizenship before those periods of time, it does result in 
people getting in the front of the line.
    Look, I provided the votes for the legalization last time. 
I want to see us work out a situation, a solution. The problem 
is that details often will determine whether or not you do have 
the reality of getting in front of the line or not and whether 
the American people will then be with us--yeah, we have to lead 
but I want the American people to be with us so that we have a 
successful law so we can take care of the problem.
    That is the point I am trying to make.
    Mr. Bloomberg. If you would like to work on an agreement, I 
would be happy to help you to do it.
    Ms. Lofgren. The gentleman's time has expired. I would turn 
now to the gentleman from New York City, Mr. Weiner.
    Mr. Weiner. Thank you very much. I think you gentleman are 
seeing how some of the demagoguery around this issue really 
stops this issue at a point, and Mr. Murdoch and Mr. Mayor and 
Mr. Moseley--Mr. Moseley, isn't it Houston? You are sure it is 
Houston?
    Mr. Moseley. I am pretty sure it is Houston.
    Mr. Weiner. You know, Richard Florida in his books and 
writings about the creative class talks about what makes 
successful cities and what makes successful suburbs as well. 
And he talks about the idea of creating social networks where 
people from around the world and around countries want to come 
to be with other people who have the same level of creativity 
and the same energy, and that is how cities like New York and 
Houston are made and that is how companies like Fox are made 
and the like.
    Can you talk perhaps, Mr. Mayor, you can start, about the 
idea that some of this debate that goes on creates an 
environment where people say you know what, I am a brilliant 
programmer in hydrobod, I am going to stay in hydrobod now. Or 
I am a brilliant creative writer and maybe I won't come to the 
United States now because there is this environment of frankly 
intolerance that kind of emerges in this debate that that 
division between legal and illegal, documented, undocumented 
just becomes a general sense that we have become a country in 
our national dialogue that sounds very much that we don't want 
anyone coming here and how that impacts.
    And perhaps Mr. Mayor, as a jumping off point, you talked 
recently at a townhall meeting in Forest Hills about a common 
sense idea that if you come in here and you want to create 
jobs, we want you, and that kind of a welcoming thing. But can 
you talk a little bit, whether it is from attracting people to 
a business like Bloomberg or News Corps or to a city like 
Houston, how this environment that does strike people as 
frankly being unwelcoming in a global economy people will stay 
in other countries and help them become more successful.
    Mr. Mayor, perhaps you can start.
    Mr. Bloomberg. There is a great danger that we will lose 
the reputation as the land of the free and the home of the 
brave. Congressman Sanchez, let me address one thing. I know it 
is on Anthony's time, but You talked about the birth rate. What 
you are looking at--you are going in the right direction but I 
think you are going slightly the wrong number.
    Look at the rate of kids going through the public school 
system that have the skills because whether we have the bodies 
is not the issue. We need bodies that have skills, and that is 
the other part, the other leg of this.
    The Congressman is right. We are not as attractive to an 
awful lot of people. They are afraid to come here. They are 
afraid that if they are legal here somebody is going to look at 
the color of their skin or the way they speak or the language 
they speak and go after them just because they are different.
    America is a land that for the last 235-some-odd years 
people have come here, they have given up their language from 
home, they have adopted English, they have adopted American 
customs. We forget it just takes a generation to do it, but we 
are desperate in this country as employers to get the highly 
educated people but also those people at the other end of the 
spectrum who are willing to take jobs that nobody else will 
take. And if there is an issue as to whether that exists, just 
take a look. The 11 million undocumented generally have the 
low-skilled jobs and they are here because there is demand, and 
that demand is not being filled by people who are already in 
this country.
    Mr. Weiner. Mr. Murdoch, do you want to add anything to 
that?
    Mr. Murdoch. No. No. I agree entirely.
    Mr. Weiner. Also, it seems to me that we also have an odd 
dynamic now that because of our focus that solely looking at 
enforcement and solely at this notion of let's try to figure 
out a way to round up the undocumented in some way that we 
actually are creating immigration laws that keep people in 
rather than keeping them from coming in. And I say that because 
I think a lot of people in our economy would not mind coming to 
the United States, taking temporary and seasonal jobs, and then 
returning to their home country. I think a lot of people would 
not mind having that type of relationship. And in many cases 
they can't do that right now because of the way that we have 
structured our immigration laws.
    Mr. Murdoch. I think that in many instances in Silicon 
Valley, particularly the Indians, have come and made great 
contributions for 10 or 15 years and then seen greater 
opportunities back in India while having contributed to America 
a lot first.
    Mr. Weiner. We also saw, in furthering Ms. Sanchez's point, 
there a lot of people come here, go to college here, take 
advantage of our education system, and then because of again 
because of a lot of the rhetoric and a lot of just a general 
sense that the legal immigration system is also in disrepair 
say you know what, I don't want the aggravation. I will take 
less money to be in my home country.
    Let me make one final point, and I think that Mayor 
Bloomberg touched upon this. If you think of the DNA of a 
person who says I am going to get up from my home country, I am 
going to pack my bags, kiss my family goodbye, take my skills 
over to the United States, go to Houston or go to New York or 
go take a job with News Corps, and you put all those people 
with that similar type of energy and desire to make things 
better, you almost by definition have a population of people 
that are going to do much better and that is why.
    But I think in just yielding back to the chair, what you 
have seen here in a microcosm from my colleagues on the other 
side is why this debate has been stalemated. It is so easy to 
demagogue this issue. You can probably get applause in any town 
hall meeting in this country by saying, They broke the law, 
they ought to go, and the conversation stops.
    Real mature law making--and it won't happen between now and 
the first Tuesday in November--involves all of us saying you 
know what? There are some things that Mr. Smith wants perhaps 
on his side that I find troublesome. There are things I want 
from my experience as a New York City Member of Congress that 
he may find troublesome.
    I believe that the American people realize there is a lot 
of area of agreement on this issue, and if this panel helps us 
get there, then it would certainly be worth the morning.
    Thank you, Ms. Lofgren, for having the hearing.
    Ms. Lofgren. Thank you, Mr. Weiner.
    The gentleman from Texas, Mr. Gonzalez, is now recognized.
    Mr. Gonzalez. Thank you very much, Madam Chair.
    Doctor Camarota, you seem to stand for the proposition 
that--and for the most part it would be the undocumented 
worker, the illegal resident takes jobs from Americans, number 
one, and secondly, depress wages.
    So what the Mayor has been saying is that I think he 
recognizes that we are pretty much on the same page on securing 
our borders, doing something to give some sort of reliable 
verification system to the employers. But the issue still 
remains that we have, by some estimates and numbers, 12 million 
illegal workers and their families in the United States. It 
seems to me that you are saying it is those particular workers 
that are depressing the wages and costing the jobs and such.
    Now, the only way, I am just assuming, to remedy that 
situation is to get rid of the 12 million workers and their 
families or whatever we have out there. I mean, is that 
accurate in what I am saying in representing your position? I 
mean, what do we do with the individuals that are here?
    I think Mayor Bloomberg keeps coming back to that and 
saying look, the issue here is what are we going to do with the 
folks that we have got here. We have got to take care of that. 
We have got to work on the others.
    Now, my Republican colleagues believe that we won't do 
anything. We will pass the law and we will do what we did in 
1986 simply by not enforcing the employer sanctions part of it. 
I don't believe that.
    But is that what you are proposing, we need to do something 
about the 12 million that are here, and what do we do? I guess 
that is my question. What are you proposing we do?
    Mr. Camarota. If you are asking an economic question----
    Mr. Gonzalez. No, no.
    Mr. Camarota. Or a policy question----
    Mr. Gonzalez. It all translates to money one way or another 
at the end of the day.
    So let's just hear what do you do with the people that are 
here in the United States today that don't enjoy legal status?
    Mr. Camarota. I think the first thing you are going to have 
to do is take the several years and put in place an enforcement 
regime that isn't just about the border, right? You are going 
to have to go after the employers who hired them.
    Mr. Gonzalez. I know that. I already know that. Let's go 
and raid the workplace, let's go and put the employer in jail 
along with the worker. We can do all that. Is that what you are 
proposing? Are you proposing to do something about this 
workforce that you say has such a detrimental effect on the 
economy of the United States of America? I am asking you what 
is your solution?
    I will tell you what our solution is. Congressman Gutierrez 
was here a minute ago. It is an earned pathway to legalization. 
You don't get in front of the line. You are here. I understand 
what my colleague Mr. Lungren is getting at.
    But there is a huge political equation, which if I still 
have 30 seconds at the end of my 5 minutes, I will tell you 
where all of this is going. It is all about where you are 
politically and what you fear what the future might hold for 
your party. That is what this is all about.
    But Let's talk about the best interest of the American 
people. What do you want to do with the 12 million undocumented 
residents and their families?
    Mr. Camarota. Let me be clear. If your concern is taxpayers 
and if your concern is people at the bottom end, encouraging as 
many of those illegal aliens to go home--If your concern is 
about the illegals, letting them stay is the best. That is the 
choice you have to make.
    Mr. Gonzalez. So you say that this is going to be one of 
those self-selection things where people will one day just say, 
well, I have been here 12 years, I have children here that are 
citizens. I have a job and such because obviously I have been 
able to be kept employed by someone, a willing and able 
American citizen that violates the law every day. You are 
saying that the answer is just for these 12 million folks to 
voluntarily go back to wherever they came from. Are you really 
suggesting that?
    Mr. Camarota. I am suggesting we enforce the law.
    Mr. Gonzalez. Doctor Camarota, if it is not voluntary, and 
I will tell you right now, it is not going to be voluntary.
    Mr. Camarota. It fell by a million----
    Mr. Gonzalez. We have all been on Earth longer than 12 
years and we know that it is not going to be a voluntary 
situation.
    So what you are saying is deportation is the only other 
thing?
    Mr. Camarota. No. I am not saying deportation. If you can't 
take a job, you can't access public benefits, if you get the 
cooperation of local law enforcement, if you penalize people 
for overstaying visas and all these other things, you can 
increase them going home.
    Mr. Gonzalez. If there is another way of maybe 
incorporating and assimilating this huge population which would 
be good for all Americans, why not grant them some sort of 
legal status that allows them to have legal rights, then maybe 
they won't depress the wages, because they do have legal 
remedies. They can't be exploited.
    And if you believe the whole answer is about a verification 
system, you have got to come to Texas. And some of my fellow 
Texans, including the Ranking Member, we come from the same 
city. Now when we have our positions and we express them you 
wouldn't believe we are from the same city. That is what party 
affiliation will do to you in America today.
    But the truth is what you are proposing is unrealistic. It 
is not workable. Yet what we are proposing actually will 
address some of your very serious concerns about depressed 
wages. It addresses the concerns of a needed labor force.
    Mr. Camarota. That is what you are missing. The basic 
economics. If you add workers to the bottom end of the U.S. 
labor market, regardless of legality, you push down wages. That 
can be very bad for business.
    Mr. Gonzalez. I think you might have a heck of a good 
argument. But you still have people that are in this country 
today that are not going to voluntarily absent themselves 
because you have got Americans giving them the jobs. We need to 
do something about those individuals. And I understand where 
you are coming from, but it is not reality based.
    Ms. Lofgren. The gentleman's time has expired, and we turn 
now to the gentlelady from California, Ms. Chu.
    Ms. Chu. Mr. Murdoch, you have been such an outspoken 
advocate for fair and sensible immigration reform policies, 
policies that would certainly take care of the challenges that 
we face today and ensure that we face tomorrow challenges. I 
have before me a Wall Street Journal op-ed that you authored in 
that so eloquently described the contributions that immigrants 
and children of immigrants make to our society every day, and I 
would like to enter that into the record for today's hearing.
    Ms. Lofgren. Without objection, it will be entered into the 
record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Ms. Chu. Thank you.
    With so much on your plate why have you chosen to direct so 
much energy to this issue?
    Mr. Murdoch. I am just a concerned citizen. I devote a lot 
of energy to a number of public issues and this is one of them.
    Ms. Chu. In your written testimony you state that it is 
nonsense to talk of expelling 12 million people and citing a 
study by the Center for American Progress. You note that it 
would cost $285 billion over 5 years to forcibly remove our 
entire undocumented population and continue our border and 
interior enforcement efforts.
    But is it really the extent of the cost to our society? I 
mean, speaking as a businessman, what would it mean to our 
country's economy if 12 million employers and employees, all of 
whom are consumers who generate spending on goods and services 
and housing, disappear from our society over the next 5 years.
    Mr. Murdoch. What would happen if?
    Ms. Chu. If these 12 million employers and employees 
disappeared from our society over the next 5 years.
    Mr. Murdoch. I think it would be a disaster. I am not for 
that.
    I don't know what article you put in there, but I would 
just like to say it was at least 3 years before I had anything 
to do with the Wall Street Journal.
    Ms. Chu. Okay.
    Mr. Murdoch. I am not responsible. I haven't seen it. I may 
agree or I may not. I don't know what it says.
    Ms. Chu. Well, actually let me take this wonderful op-ed 
that you did for the Wall Street Journal before you owned it 
and say that it talks about your--how you were an immigrant and 
how the Murdochs were immigrants.
    Mr. Murdoch. Yeah, sure.
    Ms. Chu. And how the Murdochs were immigrants. And it talks 
about the less tangible ways in which the immigrants benefit 
our society.
    You talk about Eddie Chen, an ethnic Chinese Marine who was 
born a week after his family fled Burma and that when Baghdad 
fell he was the Marine that we all watched shimmy up the statue 
of Saddam Hussein to pull it down.
    And you talk about Lance Corporal Ahman Abraham and how he 
wanted to put his Arabic language skills in the services of our 
country and how he came from Syria and hoped to be deployed to 
Iraq.
    And you talked about Corporal Jose Gutierrez, who was 
raised in Guatemala and came to America as a boy illegally. 
Corporal Gutierrez was one of the first Marines killed in 
action in Iraq. And as his family told reporters, he enlisted 
with the Marine Corps because he wanted to give back to 
America, and yet he was one of the first Marines that was 
killed in action in Iraq.
    And so you describe the entrepreneurial spirit and the 
ingenuity of many of the immigrants who want to give not only 
to the economy but also in other ways to America.
    And so in what ways did immigrants like Corporal Gutierrez 
benefit our country.
    Mr. Murdoch. I think people come here of course basically 
maybe for economic reasons but for a lot more. I think that 
they believe in the freedom they are going to have here, they 
believe in the American dream, they believe that their children 
are going to have an opportunity to do a lot better than they 
have done. And I don't think there is any question about the 
motivation.
    The only thing I would add is that what Congressman Weiner 
said earlier, that there has been so many demagoguery about 
this there is really danger outside the world that people don't 
believe the American dream is still here waiting for them. I 
don't know that that has gone as far as he says yet, but there 
is a real danger of it.
    Ms. Chu. In fact with all the impassioned discussion about 
this issue, how do we have a level-headed discussion about 
immigration?
    Mr. Murdoch. Well, I think we have had a reasonably level-
headed discussion this morning. We have had different points of 
view. Clearly we have got to get together. Someone has got to 
start it. We are trying to start something, but in the end it 
is going to have to come from the White House trying to draw 
the parties together and find some good compromise system which 
we can all get behind.
    I mean, this is a matter of major national policy, and it 
cannot be done without the President being involved and the 
Senate and the Congress and business leaders, union leaders, 
everybody.
    Ms. Chu. Thank you.
    Ms. Lofgren. The gentlelady's time has expired.
    I would like to just ask a couple of closing questions.
    I certainly want to give credit to our colleague, Mr. 
Lungren, for the work he put in in 1986 on the last bill. I 
wasn't in the Congress at that time. There has been criticism 
of what happened since then. Oftentimes the criticism is 
focused on the enforcement effort, but I have always thought 
that one of the issues really is that there was no provision to 
meet the economic needs of the United States in the bill.
    And Mr. Moseley, in your testimony, your written testimony, 
you point out that there is just 5,000 permanent resident visas 
a year for skilled individuals who lack a college degree. Now, 
we have a population in the United States of 310 million people 
and there are 5,000 skilled visas a year for everything. I mean 
ag, everything.
    How realistic is that figure, that 5,000 figure a year, to 
meet the economic needs of the United States for skilled 
immigrants? Would that even meet Houston's needs?
    Mr. Moseley. Madam Chair, it really is not realistic, and 
quite frankly, it may not have been realistic when it was 
adopted back in the day.
    There are even 140,000 unskilled workers that are allowed, 
but they are allowed to bring in spouses and children so you 
can do the calculus on that nationwide. The law just is not 
reflective of the need for a workforce to take care of the 
economy of the United States.
    We have actually hired Dr. Ray Perryman, and he went to the 
question that has been asked across different venues today, and 
the question is what would happen if 12 million workers were 
not a part of the American workforce? And Dr. Perryman 
concludes that you would see an immediate loss of some 8.1 
million jobs. So the 12 million are producing about 8.1 million 
jobs. And of the 8.1 million, eventually those could be 
absorbed, as my colleague here would talk about, and you would 
still have 2.1 million jobs lost. And the impact to our economy 
would be $1.76 trillion.
    Ms. Lofgren. I thank you for that testimony.
    Mayor Bloomberg, we do appreciate, we know how difficult it 
is. Many of us served in local government and being mayor of a 
big city is a hard job, so we appreciate that you took your 
time this morning to be here with us and also the time that you 
are spending with this partnership to advance this issue.
    You know, some people suggest that because the economy is 
terrible now--and it is, we are fighting to improve this 
economy--that it is the wrong time to discuss immigration. But 
your testimony was that immigration actually saved New York 
with stimulation of the economy.
    Can you just briefly describe how that worked?
    Mr. Bloomberg. Madam Chairman, I can't speak with authority 
on anyplace outside of five boroughs of New York City, but I 
can tell you that we think we have roughly 500,000 
undocumented. They have a very low crime rate because they 
don't want to go near the INS. They pay taxes, 75 percent of 
them pay taxes. There is withholding and there is no place to 
send the refunds. The Social Security Administration's chief 
actuary actually estimated that Social Security will go 
bankrupt 6 years earlier if you didn't have the undocumented in 
this country. But the undocumented, because they pay Social 
Security but they don't get any benefits.
    In New York City, the undocumented typically are young 
people who come here to work. They don't bring their children, 
so they don't use the public schools. There are some 
exemptions, but generally that is true. They are young people 
who work.
    People that work aren't using the hospitals. Most of us use 
most of our medical care in the last few years of our life, and 
these are people who are of working age that come here.
    And lastly, every study we have ever done says they take 
jobs that nobody else will take. Not totally. I am sure you can 
find some exceptions. But generally speaking, the undocumented 
are critical to our economy, and the fact that New York City's 
economy is doing better than the rest of the country, our 
unemployment rate is now lower than the country's as a whole, 
life expectancy is now higher in New York City is now higher 
than the country as a whole, we created 10 percent of all of 
the private sector jobs in this country in the last 10 months, 
says we are doing something right.
    And what is right is we have attracted not just from 
overseas but from the rest of the country immigrants who want 
the chance to participate in the great American dream. That is 
the great strength of New York City. And I, for the life of me, 
don't understand why other people don't look at it and say 
maybe they should try it. It might not be right for the rest of 
the country. I am not here to preach for them. I am telling you 
our experience in New York City.
    Ms. Lofgren. I appreciate that very much.
    As Mr. Weiner mentioned earlier, I often think of some of 
the traits of Americans that we value the very most--optimism, 
risk taking, entrepreneurship, commitment to family--those are 
really the traits of immigrants that really define our country. 
And to turn our back on our rich immigrant tradition is just 
deadly for the future of our country. And to be afraid of that 
is really to lack faith in the strength of our country.
    Mr. Bloomberg. It is national suicide.
    Ms. Lofgren. I agree. I come from Silicon Valley, and we 
have, as I say, half the businesses in the Valley were started 
with an American born someplace else, and I agree that we need 
those people creating jobs to lead us out of this bad economy.
    I am hopeful that you have seen today that there is not 
unanimity on this Committee and certainly in the Congress and 
really even in the country on this subject. But I do believe 
that your presence here and that of others who have been here--
we had growers and union last week; we had faith-based 
individuals. We can pull together with the help of all of you, 
and create a reform that will serve this country, which is what 
we have all pledged to do when we become Members of Congress.
    So I would like to note also for the record, and we thank--
--
    Ms. Jackson Lee. Madam Chair, can I have a personal 
privilege for 30 seconds.
    Ms. Lofgren. Yes.
    Ms. Jackson Lee. I thank the chairwoman very much. We have 
had these hearings, Madam Chairwoman, and I just want to make 
this point to the four witnesses and particularly to Mr. 
Moseley because if we were having viewers look at this hearing, 
some would have consternation by saying all they are talking 
about is immigrants and I need a job.
    I think the point I was trying to make, Mr. Moseley, is 
when we have investments such as an EB-5, Mr. Murdoch, to the 
Mayor, and I hope Mr. Camarota will look at his numbers, we 
create American jobs and as well Americans fair well.
    Can I get a quick answer Mr. Moseley, do Americans fair 
well and jobs are created when we have a reasoned immigration 
system that is contrary to the Arizona law that scares people 
and sends tourism away?
    Mr. Moseley. Yes.
    Ms. Jackson Lee. Thank you very much, Madam Chair.
    Ms. Lofgren. The gentlelady yields back.
    I would just like to close by noting that we have had a 
number of hearings, and although we appreciate Dr. Camarota's 
testimony today, I would also like to draw the attention of the 
public to the other testimony we have received that is really 
quite contrary to his testimony, specifically in May of 2007, 
where a number of economists reached very different conclusions 
than he has. All of the testimony we have ever received is on 
our Web site, and I would invite Members to look at it.
    I would again like to thank every member of the witness 
panel today. Many people do not realize that the witnesses who 
come before the Congress are volunteers. They are volunteers to 
inform us and to help us do a better job for our country. I am 
hopeful that in the coming months we will have an opportunity 
to come together to have a comprehensive immigration plan that 
solves the problems that have been outlined, that is good for 
America, that creates a better economy and lots of jobs.
    So thank you very much. The record will be open for 5 days. 
If additional questions are posed, we would ask that you answer 
them, and we thank you once again.
    This hearing is adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
